U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tarcisio Valencia-Barragan v. United States of America,
S.Ct. No. 20-6693

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
10, 2020, and placed on the docket on December 22, 2020. The government’s response is due on
January 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6693
VALENCIA-BARRAGAN, TARCISIO
USA

JONATHAN DAVID LIBBY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012
213-894-2905
JONATHAN_LIBBY@FD.ORG

